c~>

Nbf

In The

filed
APR 2 3 202)

Supreme Court of the United States
:

'-'a!1

“'

EUGENE JACOBS, JR.
Petitioner-Appellant,
v.
SECRETARY, FLORIDA DEPARTMENT OF CORRECTIONS,
Respondent-Appellee.

On Petition for a Writ of Certiorari to the United States
Court of Appeals for the Eleventh Circuit

PETITION FOR A WRIT OF CERTIORARI

Eugene Jacobs
DC#792355
Santa Rosa Correctional Institution
5850 East Milton Road
Milton, Florida 32583
Petitioner In Propria Persona

-----

r

QUESTION(S) PRESENTED ON ISSUES ON WHICH COA IS SOUGHT
1. Did the United States Court of Appeals for the Eleventh Circuit err in its
reading of Slack, in denying Petitioner’s Certificate of Appealability, given
that the district court’s dismissal of Petitioner’s federal habeas corpus
petition on procedural grounds was debatable or incorrect?
2. Did the district court err when it counted toward the AEDPA’s one-year
statute of limitations when a properly filed application for state post­
conviction or other collateral review with respect to the pertinent judgment
or sentence was pending?

1

TABLE OF CONTENTS
QUESTION(S) PRESENTED

1

v, vi

TABLE OF AUTHORITIES
I.

PETITION FOR WRIT OF CERTIORARI

1

II.

OPINIONS BELOW

1

III.

JURISDICTION

1

IV.

CONSTITUTIONAL AND STATUTORY PROVISIONS INVOLVED.... 2

V.

STATEMENT OF PERTINENT FACTS

2

A.

Introduction

2

B.

Legal Standard for Issuance of COA

9

C.

Legal Argument: Reasonable Jurists could differ as to whether
the District Court properly dismissed the Petition for Writ of
Habeas Corpus on the basis that it was time-barred by the
AEDPA’s one-year Statute of Limitations pursuant to the
provisions of 28 U.S.C. § 2244(d)(1) .....................................
1.

Procedural Component

11
14

A. Review Of A State Criminal Conviction Cannot
Conclude For Purposes Of 2244(d)(1)(A) Before
The Highest Court To Review The Case Relinquishes
Jurisdiction By Issuing A Mandate Or
Its Equivalent ......................................... .................. 14
B. Under The Plain Text of Section 2244(d)(1), A
State Judgment Is Not “final” Until The Later Of (1)
The Conclusion Of Direct Review or (2) The Expiration
. 17
Of The Time For Seeking Such Review
2.

Underlying Constitutional Claims Component
li

18

VI.

REASONS FOR GRANTING THE WRIT

22

26

VII. CONCLUSION

in

INDEX TO APPENDICES

APPENDIX 1

United States Supreme Court’s Order Granting Extension of
Time within Which to File Petition for Writ of Certiorari

APPENDIX 2

United States Court of Appeals Order Denying Motion for
Consideration

APPENDIX 3

United States Court of Appeals Order Denying Certificate of
Appealability

APPENDIX 4

United States District Court Order Denying Certificate of
Appealability

APPENDIX 5

Motion To Correct an Illegal Sentence Under Rule 3.800(a)'of
Florida Rules of Criminal Procedure

APPENDIX 6

Motion To Reconsider

APPENDIX 7

Florida Administrate Code, Chapter 33-602.201

IV

TABLE OF AUTHORITIES CITED
CASES
.....................

13

Alexander v. Sec'y for the Dep't of Corn, 523 F.3d 1291 (11th Cir. 2008)

12

Barefoot v. Estelle, 463 U.S. 880 (1983)

11

Adams v. United States, 173 F.3d 1339 (11th Cir. 1999)

...............................................

Carey v. Saffold, 536 U.S. 214, 122 S.Ct. 2134 (2002)

..

12

...............

20,21

...................................

22

Daniels v. Untied States, 532 U.S. 374, 121 S.Ct. 1578 (2001)
Franklin v. Hightower, 215 F.3d 1199 (11th Cir 2000)
Haag v. State, 591 So.2d 614 (Fla. 1992)

...............................

1

.......................................

17, 22

Hohn v. United States, 524 U.S. 236 (1998)
Houston v. Lack, 487 U.S. 266 (1988)

14, 23

.............

Jacobs v. State, 2014 Fla. App. LEXIS 13957

............................

Jennings v. Woodford, 290 F.3d 1006 (9th Cir. 2002)

11

................

Miller-El v. Cockrell, 537 U.S. 322, 123 S.Ct. 1029 (2003)

10, 11

.....

Mitchell v. United States, 612 Fed. Appx. 542, (11th Cir. 2015)

15

.

24

......................

12

.............................

18

Nix v. Sec'y for the Dep't of Corn, 393 F.3d 1235 (11th Cir. 2004)

13

Pugh v. Smith, 465 F.3d 1295 (11th Cir. 2006)

...........................

13

Riddle v. Kemna, 523 F.3d 850 (8th Cir. 2008).............................

22

Moore v. Crosby, 321 F.3d 1377 (11th Cir. 2003)
Nat’l Bank v. Germain, 503 U.S. 249 (1992)

v

Slack v. McDaniel, 529 U.S. 473, 120 S.Ct. 1595 (2000) ....

passim

Steed v. Head, 219 F.3d 1298 (11th Cir. 2000).....................

12

Tinker v. Moore, 255 F.3d 1331 (11th Cir. 2001).................

22

United States v. Olano, 507 U.S. 725,113 S.Ct. 1770 (1993)

12

Washington v. United States, 243 F.3d 1299 (11th Cir. 2001)

13

STATUTES
24

28 U.S.C. § 636(B)(1)

2

28 U.S.C. § 1254(1)
28 U.S.C. § 2244(d)(1)

passim

28 U.S.C. § 2244(d)(1)(A)

passim
14, 17, 23

28 U.S.C. § 2244(d)(2)
28 U.S.C. § 2253

2

28 U.S.C. § 2253(c)

11

28 U.S.C. § 2253(c)(2)

20
passim

28 U.S.C. § 2254

vi

OTHER AUTHORITIES
Anti-Terrorism and Effective Death Penalty Act of 1996 (“AEDPA”)
Pub. L. No. 104-132, 110 Stat. 1214 (1996)........................................

2

Florida Administrate Code, Chapter 33-602.201(7)(h)

7

Florida Administrate Code, Chapter 33-602.20l(7)(i)

7

Federal Rule of Appellate Procedure, Rule 22

2

Federal Rule of Civil Procedure, Rule 6(b)

7

Federal Rule of Civil Procedure, Rule 12(b)(6)
Federal Rule of Civil Procedure, Rule 60(b)
Florida Rules of Criminal Procedural, Rule 3.800(a)
Florida Rules of Criminal Procedural, Rule 3.850

21
7
passim
4, 25

Eleventh Circuit Rule 3-1

24

Eleventh Circuit Rule 3-1, IOP 3 . .

24

Eleventh Circuit Rule 22-1(c)

2

Eleventh Circuit Rule 27-2

2

Supreme Court Rule 13.1

1

United States Constitution, Amendment 6

3

United States Constitution, Amendment 14

3

Vll

I. PETITION FOR WRIT OF CERTIORARI
Eugene Jacobs, Jr., petitions the Court for a writ of certiorari to review the
judgment of the United States Court of Appeals for the Eleventh Circuit.
II. OPINIONS BELOW
The Eleventh Circuit’s opinion denying motion for reconsideration is
unreported and attached as Appendix 2. The Eleventh Circuit’s opinion denying
Certificate of Appealability is unreported and attached as Appendix 3. The district
court’s order denying Petitioner’s petition is unreported and attached as Appendix
4.
III. JURISDICTION
The Eleventh Circuit denied motion for reconsideration on 12/02/2020; (See
Appendix 2) of the Eleventh Circuit’s 10/23/2020 order denying motion for a
Certificate of Appealability. (See Appendix 3) On 02/17/2020, Petitioner filed an
application for an extension of time within which to file a petition for a writ of
certiorari to this Court that was received on 03/08/2021. This Court returned the
application for an extension of time without review and ordered that any Petition
for a writ of certiorari due on or after the date of 03/19/2020 order be extended to
150 days. (See Appendix 1) This petition is timely filed pursuant to Supreme Court
Rule 13.1. In Hohn v. United States. 524 U.S. 236 (1998), this Court held that,
1

under 28 U.S.C. § 1254(1), the United States Supreme Court has jurisdiction, on
certiorari, to review a denial of a request for Certificate of Appealability by a
circuit judge or panel of a Federal Court of Appeals.
IV. STATUTORY PROVISIONS INVOLVED
The right of a state prisoner to seek federal habeas corpus relief is
guaranteed in 28 U.S.C. § 2254. Under the Anti-Terrorism and Effective Death
Penalty Act of 1996 (“AEDPA”), Pub. L. No. 104-132, 110 Stat. 1214 (1996), a
one-year period of limitations applies to a petition for a writ of habeas corpus filed
by a person in state custody. The limitations period begins to run from the date on
which the state court judgment of conviction became final by the conclusion of
direct review or the expiration of the time for seeking such review. 28 U.S.C. §
2244(d)(1)(A).
STATEMENT OF PERTINENT FACTS
A. Introduction
Pursuant to 28 U.S.C. § 2253, Rule 22 Federal Rule of Appellate Procedure,
and Eleventh Circuit Rule 22-1(c) and 27-2, Petitioner, Eugene Jacobs, Jr.,
(hereafter Petitioner or Jacobs) hereby moves this Court for the issuance of a
Certificate of Appealability (“COA”), following denial of a COA request by the
district court of appeals.
2

On 09/11/2018, Petitioner presented his federal habeas corpus petition under
28 U.S.C. § 2254 to prison authorities at Gulf Correctional Institutional (hereafter
Gulf C.I.) mailroom staff to deliver to United States District Court for the Southern
District of Florida in which the district court received said petition on 09/17/2018.
Where, Petitioner alleged within his petition for writ of habeas corpus violations of
his Sixth and Fourteenth Amendments for ineffective assistant of trail counsel for
his failure to investigate and equal protection of the law, under the United States
Constitution (Dkt. # 1, Petition, at 9), together with other constitutional violations.
On 09/17/2018, the Honorable Magistrate Judge Patrick A. White was
assigned to reside over the case on the same day in which the petition was filed
with the district court. (Dkt. # 2) Additionally, the Magistrate ordered the clerk of
court, on 09/18/2018 - day two of the petition being filed, that directed them to
obtain the state online trial court docket (hereafter “OTD”) to be filed and made a
part of the instant federal habeas corpus record. (Dkt. #6) It is also important to
note, the Magistrate view of the OTD was very much misleading due to the
Nineteenth Judicial Circuit Court in and for Saint Lucie County Florida, failure to
have noted the filing of Petitioner’s Florida Rules of Criminal Procedural, Rule
3.800(a) motion to correct an illegal sentence, on its court’s docket. Because, the
Magistrate viewing of the state OTD, at such time. The Petitioner’s judgment and
3

sentence correctly appears to have become final, on 09/29/2014. See (OTD DE1
#211) However, Petitioner’s state post-conviction 3.850 Motion being filed, on
02/09/2016 (OLD DE #217), correctly appears to have been filed over 18 months
after his conviction became final.
Moreover, when considering the absent of the state court’s failure to have
noted on its docket the filing of Petitioner’s 3.800(a) motion to correct an illegal
sentence that was filed on 10/15/2015 - according to the mailbox rule, tolling the
AEDPA’s one year statute of limitation, with a remaining of 49 days to file his
federal petition. The 3.800(a) Motion was pending on 10/15/2015 (See Appendix
5) prior to Petitioner filing the 3.850 Motion that was initially filed on 02/09/2016.
(See OTD DE #223) The Magistrate therefore would have inadvertently concluded
that Petitioner’s federal petition is time-barred, albeit erroneous.
Indeed, the Magistrate’s cursory review of the state court OTD would have
caused the district court to overlook Petitioner 3.800(a) motion being filed on one
hand that tolled the one-year statute of limitation of the AEDPA, with a remaining
of 49 days. Where, the state court made no entry on its docket noting the filing of
the 3.800(a) motion - albeit such motion is still considered pending. However, on
the other hand, once the error had been pointed out to either the district or the

1 Online Trial Docket Document Entry - hereafter “OTD DE” followed by “#” which is noting the following
numeric number assigned to the entry of the document noted onto the trial docket.

4

appeals courts. Either of the courts should have ordered that a more careful review
of the state trial court OTD should have been allowed that the parties litigate the
discrepancy. That the district court nonetheless insisted on dismissing the petition,
sue sponte without further litigation of the time barred matter.
On 09/21/2018, the Honorable Magistrate Judge Patrick A. White issued its
Report and Recommendation (hereafter “R&R”) within four (4) days from the
filing of the petition. The R&R of the Magistrate had recommended sue sponte that
the petition for writ of habeas corpus be dismissed as time-barred. Because the
ADEPA’s one-year statute of limitation had ran afoul, that no COA issue, that final
judgment be entered, and close the case.
Noting most importantly, that while the Magistrate noted in its
recommendation, the petitioner had fourteen days to file objections to the District
Judge, the Magistrate R&R failed to inform the petitioner the consequence for
failing to object. (Dkt. #08) Nonetheless, Petitioner failed to object for the reasons
he clearly set forth within his motion entitled “Amended Motion for Relief from
Judgment” (Dkt. #14) Together with Petitioner’s Motions - to Accept Untimely
Objections to The Magistrate Report and Recommendation to Habeas Corpus
Petition” (Dkt. #16) and his “Motion for Extension of Time”. (Dkt. #15)

5

On 10/18/2018, the Honorable Judge Jose E. Martinez simply adopted and
affirmed the R&R of the Magistrate. Where, the district court had no obligation to
conduct the required de novo review of Petitioner’s habeas corpus petition when he
failed to timely object to the R&R. Within which the Petitioner believe and on
those bases asserts the courts - appeals and district court - would and did not
consider the facts presented as to why the 3.800(a) motion to correct an illegal
sentence was not noted on the docket of the lower state court. What is more, the
properly filed 3.800(a) Motion tolled the one year AEDPA’s statute of limitation,
with 49 days remaining. (Emphasis Added)
Moreover, what made matters worse, the 10/18/2018 order of the district
court was not received by the Petitioner at the location he had been evacuated to
until weeks later. Where, the Petitioner initially went on a level 2 lockdown status
on or about 10/04/2018 at Gulf Cl and again on or about 10/08/2018 where the
Institution went back into another lockdown status due to Hurricane Michael. Gulf
Cl remained in lockdown status up to 10/13/2018. Where, the Institution conducted
an emergency evacuation of all inmates from Gulf Cl to Central Florida Reception
Center (hereafter CFRC). Petitioner’s legal material was left behind during the
emergency evacuation.

6

Thus, Petitioner was hindered and denied access to the court when Gulf Cl
evacuated the Petitioner without all of his property that caused the failure of the
Petitioner not to object to the Magistrate R&R. That such evacuation by the
Department of Correction violated their own rules and procedures under Florida
Administrate Code, Chapter 33-602.20l(7)(h) and (i) — Inmate Property.
(Appendix 7) The district court and appeal court was well aware of these facts as
they were fully set forth and presented in Petitioner’s Amended Motion for Relief
from Judgment. (Dkt. #12)
Nevertheless, Petitioner made a substantial effort to move the Federal
District Court to review his petition for writ of habeas corpus in a series of motions
after he failed to timely object to the R&R of the Magistrate. Such as, Amended
Motion for relief from judgment, pursuant to 60(b). See (Dkt. 14); Motion for
Extension of Time to Respond to Magistrate’s Report & Recommendation,
pursuant to Rule 6(b). See (Dkt. 15), and Motion to Accept Untimely Objections to
the Magistrate Report & Recommendation. See (Dkt. 16). In which all of the above
explained in details why the objections were untimely, but the district court denied
the above motions (Dkt. #18) premised upon the following reasons.
The district court premised it denial on, that while Petitioner’s Motion for
Relief from Judgment (Dkt. #12) provided valid reasons that could necessitate an
7

extension of the district court’s deadline. The motion failed to address why there
were no objections still not filed until 01/07/2019, this ruling was in erring.
Petitioner did provide valid reasons why it took until 01/07/2019 to file his
objections. Because, Petitioner lost his drafts to his objections, the notes regarding
the basis for the objections, and research material were all missing from among his
property.
The district court further ruled that the Motion for Extension of Time to
Respond to Magistrate’s R&R (Dkt. #15) failed also to address why the petitioner
failed to file abjection. Moreover, Petitioner’s Motion to Accept Untimely
Objections (Dkt. #16) to the Magistrate R&R was essentially as an outline of
Petitioner’s ultimate objections. While the district court reasoning are tme
regarding Petitioner’s Motion to Accept Untimely Objections. Nevertheless,
reasonable jurists could debate whether (or, for that matter, agree that) the petition
should have been resolved in a different manner or that the issues presented were
adequate to deserve encouragement to proceed further.
On 06/02/2020, Petitioner provided his Notice of Appeal to authorized Staff
at Santa Rosa Correctional Institution. That was subsequently filed with the district
court on 06/08/2020. (Dkt, #19) Additionally, Petitioner filed an application for a
COA (Dkt. #21), together with a Supplemental Motion for a COA. (Dkt. #24) In
8

which both pleadings were based upon the district court being wrong in its ruling,
in such detail, that the respondent should have been ordered to respond on the
issue, regarding the timelessness of the petition for writ of habeas corpus.
In the case at bar, the Petitioner has presented competent and substantial
evidence, from the state court’s record (See OTD DE #’s 273, 281, 289, and 294)
that the petition for writ of habeas corpus is not time-barred, and jurists of reason
could find it debatable, whether the district court were correct in its procedural
ruling. Nonetheless, the district court denied both motions for a COA on
07/09/2020. (See Appendix 4)
On 07/24/2020, Petitioner provided his Notice of Appeal to authorized Staff
at Santa Rosa Correctional Institution to file with the United States Court of
Appeals for the Eleventh Circuit regarding the district court denial of his COA.
The appeals court denied Petitioner’s motion for COA premised upon the same
reasoning as the district court. (See Appendix 3) On 12/02/2020, the appeals court
denied Petitioner’s motion for reconsideration. (See Appendix 4)
On 02/17/2020, Petitioner filed an application for an extension of time
within which to file a petition for a writ of certiorari to this Court that was received
03/08/2021. This Court returned the application for an extension of time without

9

review, and ordered that any Petition for a writ of certiorari due on or after the date
of 03/19/2020 order be extended to 150 days. (See Appendix 1)
Therefore, Petitioner has 150 days from the denial of his motion for
reconsideration that the appeals court denied on 12/02/2020; (See Appendix 2) of
the appeals court’s 10/23/2020 order denying motion for a Certificate of
Appealability. (See Appendix 3)
Petitioner’s petition to The United States Supreme Court for Writ of
Certiorari is timely flied up to and before 05/01/2021, which fall on the 7th day or
the end of the week. This further extends the filing date on or before 05/03/2021.
B. Legal Standard for Issuance of COA
In the U.S. Supreme Court decision in Miller-El v. Cockrell, 537 U.S. 322,
123 S.Ct. 1029 (2003), the Court clarified the standards for issuance of a COA:
... A prisoner seeking a COA need only demonstrate a
“substantial showing of the denial of a constitutional right”. A
petitioner satisfies this standard by demonstrating that jurists of
reason could disagree with the district court’s resolution of his
constitutional claims or that jurists could conclude the issues
presented are adequate to deserve encouragement to proceed
further.
Id.. 123 S.Ct. at 1034, citing Slack v. McDaniel. 529 U.S. 473, 478, 120 S.Ct. 1595
(2000). Reduced to its essentials, the test is met where the petitioner makes a
showing that “the petition should have been resolved in a different matter or that
10

the issues presented were ‘adequate to deserve encouragement to proceed further’.”
Id., at 1039, citing Barefoot v. Estelle. 463 U.S. 880 (1983). This means that the
petitioner does not have to prove that the district court was necessarily “wrong” just that its resolution of the constitutional claim is “debatable”:
We do not require petitioner to prove, before the issuance
of a COA, that some jurists would grant the petition for habeas
corpus. Indeed, a claim can be debatable even though every
jurist of reason might agree, after the COA has been granted
and the case has received full consideration, that petitioner will
not prevail. As we stated in Slack, where a district court has
rejected the constitutional claims on the merits, the showing
required to satisfy § 2253(c) is straightforward: The petitioner
must demonstrate that reasonable jurists would find the district
court’s assessment of the constitutional claims debatable or
wrong.
Applying the above standard for granting a COA, the Ninth Circuit Court of
Appeal has acknowledged that the standard is “relatively low”. Jennings v.
Woodford. 290 F.3d 1006, 1010 (9th Cir. 2002)[citing Slack, at 483]. Moreover,
because the COA ruling is not an adjudication of the merits of the appeal, it does
not require a showing that the appeal will succeed. Miller-El v. Cockrell, supra,
537 U.S. at 337.
C. Legal Argument: Reasonable jurists could differ as to whether the District
Court properly dismissed the petition for writ of habeas corpus on the
basis that it was barred by the AEDPA Statute of Limitations pursuant to
the provisions of 28 U.S.C. § 2244(d)(1).

11

A petitioner must overcome several procedural barriers before a court will
review the merits of a petition for a writ of habeas corpus as set forth therein the
applicable provisions of 28 U.S.C. § 2254. As Justice O’Connor noted in Daniels
v. Untied States. “Procedural barriers, such as statutes of limitations and rules
concerning procedural default and exhaustion of remedies, operate to limit access
to review on the merits of a constitutional claim.” 532 U.S. 374, 381, 121 S.Ct.
1578 (2001); see also United States v. Piano. 507 U.S. 725, 731, 113 S.Ct. 1770
(1993).
As such, the appeals court reviews de novo the district court’s determination
that the petition for federal habeas corpus relief was time-barred under the
AEDPA. Moore v. Crosby. 321 F.3d 1377, 1379 (11th Cir. 2003) (citing Steed v.
Head. 219 F.3d 1298, 1300 (11th Cir. 2000); see also 28 U.S.C. § 2244(d).
The AEDPA establishes a one-year statute of limitations for filing 2254
petitions, which begins to run following the latest of several possible dates,
including the date on which the petitioner's judgment becomes final. See 28 U.S.C.
§ 2244(d)(1); Alexander v. Sec'v for the Dep't of Corr., 523 F.3d 1291, 1294 (11th
Cir. 2008).
To decide whether a petition for writ of habeas corpus was filed within oneyear of the conviction becoming final, we must determine:
12

"(1) when the [collateral] motion was filed, and
(2) when [the] 'judgment of conviction' became final."
Adams v. United States. 173 F.3d 1339, 1340-41 (llthCir. 1999).
A pro se petitioner's collateral action is deemed filed in federal court on the
date it is delivered to prison authorities for mailing, and absent state-presented
evidence to the contrary, we will presume that the petition was delivered on the
date the petition was signed. Washington v. United States, 243 F.3d 1299, 1301
(11th Cir. 2001).
A conviction is final at "the conclusion of direct review or the expiration of
the time for seeking such review." Pugh v. Smith. 465 F.3d 1295, 1298 (11th Cir.
2006) (quoting 28 U.S.C. 2244(d)(1)(A)).
A state prisoner's conviction becomes final when the United States Supreme
Court denies certiorari, issues a decision on the merits, or when the ninety day
period in which to file for certiorari expires, regardless of whether the defendant
raised any federal issues on direct appeal. Nix v. Sec'v for the Dep't of Corr., 393
F.3d 1235, 1236-1237 (11th Cir. 2004).
The statute of limitations is tolled for any period of time in which a properly
filed petition for post-conviction relief is pending before the state courts. See 28
U.S.C. § 2244(d)(1), which provided:
13

(d)(2) The time during which a properly filed application for state
post-conviction or other collateral review with respect to the pertinent
judgment or claim is pending shall not be counted toward any period
of limitation under this subsection.
The time during which a properly filed application for state post-conviction
or other collateral review with respect to the pertinent judgment or claim is
pending shall not be counted toward the AEDPA statute of limitations. 28 U.S.C.
§2244(d)(2). The statute of limitations in not tolled during the interval between the
date on which a judgment becomes final and the date on which the petitioner files
his first state collateral challenge because there is no case “pending.” Once a
petitioner commences state collateral proceedings, a state habeas petition is
“pending” during a full round of review in the state courts, including the time
between a lower court decision and the filing of a new petition in a higher court, as
long as the intervals between the filing of those petitions are “reasonable.” Carey v.
Saffold, 536 U.S. 214-222-224, 122 S.Ct. 2134(2002).
In Slack v. McDaniel, 529 U.S. 473, 120 S.Ct. 1595 (2000). The Supreme
Court explained that determining whether a COA should issue where a habeas
corpus petition has been dismissed on procedural grounds has “two components,
one directed at the underlying constitutional claims and one directed at the district

14

court’s procedural holding.” Id., at 485. Both of these components are addressed,
respectively, in parts 1 and 2, below.
1. Procedural Component
A. Direct Review Of A State Criminal Conviction Cannot Conclude For
Purposes Of 2244(d)(1)(A) Before The Highest Court To Review The
Case Relinquishes Jurisdiction By Issuing A Mandate Or Its Equivalent
Addressing, for convenience, the second component first, the appropriate
inquiry is “whether jurists of reason could conclude that the district court’s
dismissal on procedural grounds was debatable or incorrect”. Id., at 485.
In AEDPA, Congress expressly allowed a state prisoner a full year within
which to file a petition for a writ of habeas corpus, beginning on the “latest of’
separately enumerated potentially triggering events. 28 U.S.C. 2244(d)(1). Among
the possible triggering events, subparagraph (A) identifies “the date on which the
judgment became final” and then states two different ways such finality can occur:
“by the conclusion of direct review or the expiration of the time for seeking such
review.” 28 U.S.C. 2244(d)(1)(A). In this case, petitioner filed his state post­
conviction habeas petition within one year of the “conclusion of direct review,”
which occurred when the state intermediate court of appeals issued its mandate
relinquishing control over the appeal from petitioner’s conviction. See Jacobs v.
State. 2014 Fla. App. LEXIS 13957. Because, under the plain language of Section
15

2244(d)(1)(A), a state criminal conviction does not become “final” before direct
review has reached its “conclusion,” petitioner’s filing was timely.
The lower courts rejected this straight-forward application of the statutory
text in a misguided pursuit of narrow uniformity in AEDPA’s application. While
Congress has supplied a uniform federal rule for determining the timeliness of state
habeas petitions, that rule requires reference to state procedures to determine when
the federally identified triggers occurred. A failure to take account of the realities
of state proceedings would be inconsistent with Congress’s intent to encourage
exhaustion of state collateral relief before pursuing federal habeas review. Even if
strict uniformity were achievable, and desirable, that would provide no basis to
disregard the statutory text. Congress has expressly provided that the one-year
period for filing a federal habeas petition does not begin to run until “the latest” of
the specified dates. A state conviction does not become “final” under Section 2244
(d)(1)(A) as long as direct appellate review has not reached its “conclusion” or the
time to seek further review has not yet expired, whichever is later. In either event,
the state conviction is still subject to revision, and federal habeas review is
premature.
In the instant case, Petitioner’s judgment and sentence became final and the
mandate issued was filed with the lower state court online trial docket - OTD, on
16

9/29/2014. (See OTD DE #211) Petitioner did not filed any petition with the
United States Supreme Court in which such time expired on 12/12/2014.
Therefore, Petitioner had until 12/12/2015 during which he needs to file his
application for state post-conviction or other collateral review with respect to his
pertinent judgment in order to tolled the one-year AEDPA’s statute of limitations.
See 28 U.S.C. § 2244(d)(2)
Petitioner then filed his 3.800(a) motion2 to correct his illegal sentence
pursuant to the State of Florida post-conviction provisions on 10/15/2015 within
which the appeals and district courts has yet to dispute. (Emphasis Added) (See
Appendix 5) (See also Houston v. Lack. 487 U.S. 266 (1988))(Pro se Petition
deemed “filed” with the court upon submitting pleading to prison authorities) On
07/31/2019, the trial state court denied Petitioner’s 3.800(a) motion to correct an
illegal sentence. (See OTD DE #281) Consequently, the trial court denying
Petitioner’s 3.800 (a) motions, a “Notice of Appeal” was filed on 09/05/2019 (See
OTD DE #283), in which the Fourth District Court of Appeals for the
State of Florida per curiam affirmed the sentence on 11/21/2019. (See OTD DE #
294) Therefore, the one-year AEDPA’s statute of limitations were still tolling
when Petitioner filed his Federal Writ of Habeas Corpus petition pursuant to the
2 While Petitioner filed a second 3.800(a) motion on 10/16/2019, (see OTD DE #290). The second 3.800(a) motion
to correct an illegal sentence has no relevancy to the timely filing of his petition for writ of habeas corpus pursuant
to section 2254. See also 28 U.S.C. § 2244(d)(2) Only the first, 3.800(a) motion to correct an illegal sentence filed
on 10/15/2015 (Mailbox Rule)(See Appendix 5)

17

provisions of 28 U.S.C. § 2254 (See also 28 U.S.C. § 2244(d)(2)), with the district
court on 09/17/2018. (See Dkt. # 1)
B. Under The Plain Text of Section 2244(d)(1), A State Judgment Is Not
“final” Until The Later Of (1) The Conclusion Of Direct Review or (2)
The Expiration Of The Time For Seeking Such Review
In Section 2244(d)(1), Congress specified that the beginning of the one-year
period of limitation is determined by “the latest of’ the specified points in time,
including “the date on which the judgment became final by [(i)] the conclusion of
direct review or [(ii)] the expiration of the time for seeking such review.” 28
U.S.C. 2244(d)(1)(A). Here, the court of appeals simply held that because the
Petitioner’s “petition is plainly barred by § 2254’s one-year statute of limitations
and he has not shown that he is entitled to equitable tolling, he has failed to satisfy
the second prong of Slack’s test”.
Because that holding is contrary to Congress’s express textual direction that
the statutory period start running after “the latest of’ the possible trigger as set
forth above, this Court’s analysis need not proceed any further, and the judgment
of the court of appeals must reversed. See Connecticut Nat’l Bank v. Germain, 503
U.S. 249, 253-254 (1992) (“When the words of a statute are unambiguous, then,
this first canon” of construction, that Congress means what it says in a statute, “is
also the last” judicial inquiry is complete”). Moreover, in the habeas context, the
18

Court has observed that “[t]he writ of habeas corpus plays a vital role in protecting
constitutional rights,” and that Congress has “expressed no intention to allow trial
court procedural error to bar vindication of substantial constitutional rights on
appeal.” Slack. 529 U.S., at 483.
Thus, reasonable jurists could fine it debatable whether the district court was
correct in its procedural ruling to dismiss Petitioner’s petition as time-barred,
pursuant to AEDPA statute of limitations.
Notwithstanding, the Appeals Court’s Omnibus order appeared to have been
focused upon Petitioner’s failure to “set forth any circumstances warranting the
‘extraordinary remedy’ of equitable tolling”. See Dkt. # 26, Omnibus Order, at 2;
where there was no need to set forth any circumstances warranting the
extraordinary remedy for equitable tolling. When considering that Petitioner had
filed his petition for writ of habeas corpus timely and his proper response were to
show the Magistrate recommendation to dismiss petition for writ of habeas corpus
as untimely was wrong or at the least debatable among jurists. As such, the
Eleventh Circuit Court of Appeals denying Petitioner’s application for a COA was
wrong and that denial was in err under the Slack test.

19

2. Underlying Constitutional Claims Component
The Eleventh Circuit Court of Appeals maintains that to merit a certificate of
appealability, Jacobs must show that reasonable jurists would find debatable both:
a)

The merits of an underlying claim; and

b)

The procedural issues that he seeks to raise

See 28 U.S.C. 2253(c)(2); Slack v. McDaniel, 529 U.S. 473, 478 (2000)
As such, because Petitioner’s petition is:
(1) Plainly barred by Section 2254’s one-year statute of limitations
(2) He has not shown that he is entitled to equitable tolling, and
(3) He has failed to satisfy the second prong of Slack’s test.
See Appendix 3.
In the case at bar, prior to the judgment of dismissal sue sponte,
neither the Magistrate nor the district court ever addressed the merits of the
constitutional claims, and consequently the merits were never briefed by either side
or the claims examined in the context of an evidentiary hearing. Thus, the instant
case the first prong of Slack was satisfied. See Franklin v. Hightower, 215 F.3d
1199 (11th Cir 2000) (holding that the petitioner was entitled to a certificate of
appealability after determining that one of his claims, taken as true, alleged the
denial of a constitutional right).
20

Frequently, as in this case, the district court has dismissed a
claim on a procedural ground without providing the petitioner an
opportunity to develop its factual or legal basis through full briefing
and an evidentiary hearing. In such cases, we need not remand for full
briefing to determine whether a COA can issue. Rather, as some other
circuits have held, we will simply take a “quick look” at the face of
the complaint to determine whether the petitioner has “facially alleged
the denial of a constitutional right”, and assuming the district court’s
procedural ruling is debatable, we will grant a COA.
Franklin, supra, at 1199 [emphasis added]. Further, the Franklin court goes on to
state that:
When a claim is denied on a procedural ground, all of the
inferences that govern a Rule 12(b)(6) motion apply to this situation.
Thus, we take the petitioner’s facial allegations as true and the non­
moving party is entitled to the benefit of all reasonable inferences.
Id., fn.5 [emphasis added]
In sum, the law of this case clearly shows that the Petitioner satisfied the
first prong of Slack - facially alleging the denial of a constitutional right. See
Federal Rule of Civil Procedure, Rule 12(b)(6).
However, under the second prong of Slack the district court’s procedural
ruling being incorrect is subject to debate among reasonable jurist, as demonstrated
by the existing circuit conflict where the procedural issue in the present case is
clearly one on which reasonable jurists can disagree. In fact, at least two courts of
appeals would have held petitioner’s habeas petition to be timely under Section
2244(d)(1)(A).
21

Because, the issuance of the state court’s mandate - if later than the
expiration of the time for seeking further review - marks the conclusion of the
direct review process and thus serves as the touchstone for finality of the state
court’s judgment. See Riddle v. Kemna. 523 F.3d 850, 856 (8th Cir. 2008); Tinker
v, Moore. 255 F.3d 1331, 1333 (11th Cir. 2001), cert, denied, 534 U.S. 1144
(2002). For these reasons, petitioner has presented evidence to show that
reasonable jurists would debate the accuracy of the district court’s ruling that
Jacobs’s petition was time-barred.
Accordingly, Petitioner is entitled to a COA on the dismissal of his federal
habeas corpus petition as time-barred, where the courts has incorrectly determined
that the AEDPA’s statutes of limitation was not tolled during the required one-year
time limitation.
REASONS FOR GRANTING THE WRIT
The following factors were all present in this case:
1.

Petitioner clearly presented his post-conviction motion for relief under

Fla.R.Crim.P. 3.800(a) to correct an illegal sentence to authorities at Gulf C.I. for
delivery to the court on 10/15/2015 in accordance with the federal “mailbox rule”
held in Houston v. Lack, 487 U.S. 266 (1988) adopted in James J. Haag v. State of
Florida. 591 So.2d 614 (Fla. 1992). (See Appendix 5) Nevertheless, the 3.800(a)
22

motion was pending. See 28 U.S.C. § 2244(d)(2). See also Carey v Saffold, 536
U.S. 214-222-224, 122 S.Ct. 2134 (2002)
2.

The district court were informed twice in Petitioner’s Application for

Certificate of Appealability (Dkt. DE # 21, at 2), and his Supplemental Application
for Certificate of Appealability (Dkt. DE # 24, at 3). That the trial court of Florida
failed to note on their trial docket the filing of Petitioner’s 3.800(a) Motion that
caused the Magistrate to miscalculate the AEDPA’s one-year statute of limitation.
See 28 U.S.C. § 2244(d)(2) The appeals courts were also informed in Petitioner’s
Motion to Reconsider ( See Appendix 6) that the Magistrate miscalculated the oneyear statute of limitation. Moreover, Petitioner presented the 3.800(a) motion as
evidence within the motion to consider as an attachment to show the motion was
indeed filed in accordance with the mailbox rule. Nevertheless, the courts denied
Petitioner request for COA.
3.

Petitioner timely filed his petition for writ of habeas corpus on

09/11/2018, according to the mailbox rule. (See Dkt. # 8) The Magistrate however
erroneously recommended that Petitioner’s petition be dismissed as time-barred
and further recommended that objection be filed with the district judge within
fourteen days of receipt of a copy of the report. (See Dkt. # 8, Magistrate Report
and Recommendation, at 19)
23

4.

While, the Magistrate’s R&R clearly stated that objection be filed

with the district judge within fourteen days of receipt of a copy of the report, the
Magistrate’s R&R failed to inform the Petitioner of the consequences for failing to
file such objections to the district judge. (See Dkt. # 8, Magistrate Report and
Recommendation, at 19) The court explained in Mitchell v. United States, 612 Fed.
Appx. 542, 545 (11th Cir. 2015) (“A party failing to object to a magistrate judge’s
findings or recommendations contained in a report and recommendation in
accordance with the provisions of 28 U.S.C. § 636(B)(1) waives the right to
challenge on appeal the district court’s order based on unobjected-to factual and
legal conclusion if the party was informed of the period for objecting and the
consequences on appeal for failing to object,”) citing 11th Cir. R. 3-1); The court
explains further that “our procedural rules require that the notice given to the
parties of the consequences of failing to object to a magistrate judges factual and
legal conclusions should accompany the R&R.” (citing 11th Cir. R. 3-1, IOP 3))
Again, Petitioner was not informed of the consequences of failing to object to the
magistrate judge factual and legal conclusions.
5.

Conversely, considering that the Petitioner was aware of the

consequences of failing to timely object to the Magistrate’s R&R. Still, Petitioner
would have failed to timely object as was narrated in his Amended Motion for
24

Relief from Judgment. (See Dkt. # 14) Where the Petitioner received the R&R on
or about 10/01/2018 and had fourteen (14) days upon receipt of the report to object
to the district judge the magistrate judges factual and legal conclusions. Petitioner
went through two lockdowns from 10/04/2018

10/08/2018 and again from

10/09/2018 - 10/13/2018. On 10/13/2018, Petitioner was evacuated from Gulf C.I.
to Central Florida Reception Center, without any of his legal material and that such
legal material was not finally received from Gulf C.I. to Central Florida Reception
Center until on or about 10/24/2018. (See Dkt. # 14) Notwithstanding, the
objections was due on or before 10/15/2018 but the district judge had already
adopted the Magistrate R&R on 10/19/2018. (See Dkt. # 9)
6.

The Hallmark of the above narrative is that the district and the appeals

courts held Petitioner accountable for his failure to timely object, even where the
district court ruled it would address the merits of Petitioner’s Motion for a CO A.
(See Dkt. # 26, Omnibus Order, at 2) Nevertheless, the courts refused to review de
novo the factual argument made by the Petitioner. The courts presented no factual
finding in their rulings to refute that Petitioner had initially attacked his sentence
on 10/15/2015 through a 3.800(a) motion to correct an illegal sentence, which was
still pending up to the time his 2254 petition was filed and therefore is timely. As
opposed to the post-conviction motion filed pursuant to 3.850 being determined to
25

be the initial post-conviction motion being filed over a year after Petitioner’s
judgment and sentence becoming final. When, such determination by the courts is
further from the facts: that the 3.800(a) tolled the AEDPA’s one-year statute of
limitation, with 49 days remaining up to the time Petitioner filed his 2254 petition
and therefore not time-barred.
CONCLUSION AND PRAYER FOR RELIEF
For the foregoing reasons, the judgment of the court of appeals should be
reversed.

26

